n

gflo /;

IN THE
SUPREME COURT OF THE UNITED STATES

/ig
t

Fred Cartwright

' r '.I i

— PETITIONER

(Your Name)
vs.
Silver Cross Hospital and Medical
Centers and Crothall Healthcare Inc. — RESPONDENT^)
ON PETITION FOR A WRIT OF CERTIORARI TO

SUPREME COURT OF THE UNITED STATES

FILED
NOV 0 4 2020
- SUPREMEFCo|jRTLn

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Fred Cartwright
(Your Name)
507 E. Cass Stree
(Address)

Joliet, IL 60432
(City, State, Zip Code)
(815)582-3116
(Phone Numoer)

7

QUESTIONS) PRESENTED
The Petitioner does not know what he are doing, please view the next page labeled “List of Parties” for more
ietails and everything that listed may have been a wast of time. It takes too much time to learn how to do this
vithout medical assistance and legal assistance. The Petitioner are requesting help from an un-bias Counsel
vhom would actually present all the Petitioners Factual Evidence and numerous Witnesses.
I. Petitioner is completely confused on filling out all the forms in the Petitioner Appeals motion, that’s due to
he Petitioners difficulties of focusing, concentrate, physical and medical issues, (PTDS) post-traumatic stress
disorder and other incapabilities.
I On July 17, 2020, the Appellant filed a Motion Petition Request for a EN Banc Rehearing by the Full
Committee Panel Member and for the Court of Appeals for the Seventh Circuit, of the June 18, 2020 Final
Judgment Decision Regarding the Erroneous Dismissal Decision made in the June 25, 2019 Dismissal of
Case No. 15-cv-06759 (as Exhibit 90).
5. On July 23, 2020 Appellant filed an Appellants’ Special Second Attachment Motion Petition request for a
EN Banc Rehearing by the Full Committee etc. (as Exhibit 91).
L Petitioner will be sending a copy of the General Dockets that I requested for all filing and the Petitioner are
isting below Petitioners October 3, 2020 Docket ex 97.
>i August 31, 2020 the Petitioner filed, Motion To Recall Mandate, to the Court of Appeals, received and
i,~j on 9/2/2020 and that was also denied on 9/10/2020 (as Exhibit 92)
5. On October 3, 2020 the Petitioner filed an apology letter to the Supreme Court (as Exhibit 97)
T. On Appellants’ Motion Request for special consideration for extension of time to file, Petition for Writ Of
Certiorari to the Supreme Court, due to the Petitioners medical condition and be treated, evaluated and cared
or by caregivers and continue to follow Doctors Orders. Petitioner are inconveniently deprived while being
jnable to focus and concentrate while being without Counsel for fairness and justice. The Petitioner did
jrovide to the Supreme Court the Petitioners evaluation from his Psychiatrist and Therapist/Counselors and
vill again provide Exhibits 88-1 in Appendix A and 88-2 Appendix B evaluations (as Exhibit 97).
B. Petitioner are beyond confuse and trying his best

l

LIST OF PARTIES

[xj All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list Of
all parties to the proceeding in the court whose judgment is the subject Of this
petition is as follows:
(1) Silver Cross Hospital and Medical
Centers
(2) Crothall Healthcare Inc.

RELATED CASES
(a) The Petitioner does not knows what he is doing, while unable to focus
and concentrate, due to the Petitioners lack of knowledge of the Laws and
the Petitioners (PTSD) post-traumatic stress disorder, physical and mental
medical conditions etc. (b) The Petitioner are filing a motion for an
extension of time not to file a Petition for Writ of Certiorari until the
Petitioner can follow the Petitioners Doctors orders and be treated and
cared for by (c) the Petitioners Therapist/Counselors whom was consulted
or acquired by Petitioners Doctor for another evaluation opinion by another
Professional Scholar of the medical field for an more accurate or precise
evaluation and (d) the Petitioners Therapist/Counselors acquired or
consulted with the Petitioners Psychiatrist for another Professional Scholar
opinion for an more accurate and precise evaluation for treatment and care
so the Petitioner can properly prepare and fairly participate in this writ of
certiorari etc. Petitioner has evaluations attachments from the Petitioners
Psychiatrist as Appendix A and Trial Exhibit 88-1 and the Petitioners
Therapist/Counselors evaluation attachment as Appendix B and Trial
Exhibit 88-2.

TABLE OF AUTHORITIES CITED
CASES
District Court Civil Case
Northern District of Illinois,
Eastern Division
District Judge John Robert
Blakey
United States Court of
Appeals for the Seventh
Circuit

PAGE NUMBER

15-CV-06759

19-2595

STATUTES AND RULES
This is an employment discrimination and Appellant’s 13 Separate Courts
of Allegations Case. Jurisdiction in the District Court over the violations
alleged under Title V11 of the Civil Rights Act is conferred by 28 U.S.C.
§1331, 28 U.S.C. §1343(a)(3) and 42 U.S.C. §2000e-5(f)(3). Jurisdiction over
the violations alleged under 42U.S.C. §1981 is conferred by 28 U.S.C.
§1331, 28 U.S.C. §1343(a)(3) and 42 U.S.C. §1988. Jurisdiction over
violations of the Age Discrimination in Employment Act is conferred by 28
U.S.C. §1331, 29 U.S.C. 626 and 42 U.S.C. §12117.

OTHER
View - Appendix D Link to Part 2 of - Constitution and Statutory
Provision involved document for more details.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[X] For eases from federal courts:
-

:v

C

The opinion of the United States court of appeals appears at Appendix —_— to
the petition and is
June 25, 2019
; or,
[xi reported at
[ ] has been designated for publication but is not yet reported; or,
[ j is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix--------to the petition and is
; or,
[ ] reported at
l 1 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the —. ...r» •
-—-.r.
appears at Appendix—---- to the petition and is
> or,
[ 3 reported at
——^—,, .■
[ ] has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
1,

to

JURISDICTION
pc] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was June 18, 2020
C I No petition for rehearing was timely filed in my case.
[x] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: -J3QRt®!Pber 1.0, 2020 ? and a copy of the
order denying rehearing appears at Appendix —!=—_.
[ ] An extension of time to file the petition for a writ Of certiorari was granted
(date)
(date) on —.
to and including ______
in Application No.__ A.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1),

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix , P ;...

June 25, 2019

£X} A timely^tfrionjor rehearing was thereafter denied on the following date:
appears at Appendix

P , .

[ ] An extension of time to file the petition for a writ of certiorari was wgranted
to and including
(date) on.. ...................(date) in
Application No.
.A__:
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Jurisdictions
"FIRST AND MAIN" "JURISDICTION" "PETITIONER ARE SEEKING REVIEW" to the
"Supreme Court" are a copy of United States Court of Appeals for the Seventh
Circuit June 18, 2020 "FINAL JUDGMENT" of "Appeal Case No. 19-2595" along
with a copy of Petitioners apology 1 page letter and (as Exhibit 96) a copy of
Petitioners October 3,2020 Affidavit accompanying motion for permission to
Appeal in Forma Pauperis to the Court of Appeals (View Attachment APPENDIX AA

-1)
Jurisdiction (under the lower court) to decide this Case pursuant to U.S.C. 28
U.S.C. §1291 of the Civil Case No. 15-CV-06759 and Appeal Case No. 19-2595
Jurisdiction to decide this Case pursuant to U.S.C. 28 U.S. Code § 1746 of the
Supreme Court.
Jurisdiction over the violations alleged under Title VII of the Civil Rights Act is
conferred by 28 U.S.C. §1331, 28 U.S.C. §1343(a)(3) and 42 U.S.C. §2000e-5(f)(3).
Jurisdiction over the violations alleged under 42 U.S.C. §1981 is conferred by 28
U.S.C. §1331, 28 U.S.C. §1343(a)(3) and 42 U.S.C. §1988. Jurisdiction over
violations of the Age Discrimination in Employment Act is conferred by 28 U.S.C.
§1331, 29 U.S.C. 626 and 42 U.S.C. §12117. Jurisdiction over violations of the Sex
Discrimination Act (Title Vll of the Civil Rights Act of 1964) Title IX is a federal
civil rights law in the United States of America that was passed as part of the
Education Amendments of 1972. This is Public Law No. 92-318, 86 Stat. 235,
codified at 20 U.S.C. §§ 1681-1688. Wage Discrimination, Job Segregation, and
Title Vll of the Civil Rights Act of 1964,12 U. Mich. J.L. Reform 397 (1978-1979);
I.

Petitioners and other African Americans Rights must be protected under
the First Amendment etc. Rights under the Constitution.

1. 18 U.S.C. § 1503 - Criminalizes "corruptly" attempting to "influence,
intimidate, or impede" the New Lenox Police Official investigation and
proceeding of a "Civil Rights Investigation" into a "Hate Crime" committed by
three non-African Americans whom admitting to Plotting to Kill a co-worker,
by running the Petitioner off the road with cars and made two attempt at least
before the Petitioner became aware after the Petitioner reporting the two

^3

1 OF 11

incidents to Boss's, Supervisor and due to corrupt attempt issues, the
petitioner was force report the hate crime incident to the President of
Corporation's and to Corporations Human Resources. While the corruptness
continued with protecting the unstable non-African Americans, while
Respondents began intimidating and bullying the Petitioner to shut up and go
to work. When that didn't work, the Petitioner was suspended for one week
etc. then terminated etc. (1-a) that was obstruction of justice by the
Respondents (1-b) Respondents were creating a toxic and hostile workplace
environment (1-c) Respondents was consistently continuing with violations of
abuse of their own rules, policies and the federal laws etc. (1-d) (view
Petitioners Trial Exhibits 32, 33, 34 and all Trial Exhibits etc. for factual evident
of the details of the Civil Case No. 15-cv-06759)
2. 18 U.S.C. § 1512 - the Respondent's believe to and has engaged in influence,
delay and prevent the testimony of any of witnesses, while preventing
depositions of witnesses, (2-1) Respondent's has altered evidence as a fact,
believe to have destroyed evidence and attempt to conceal information of
criminal activities as detailed throughout this Constitution and Statutory
document (2-b) hindering, delaying and preventing the communications to a
law enforcement officer (a New Lenox Police Officer Brian Morrison Trial
Exhibit 34) and maybe the States Attorney Official (view Trial Exhibit 68-of
page 63 1/10/14 Official Carson ?) and Federal Judge John Robert Blakey (2-c)
co-workers Plot to kill the Petitioner, while making two attempts with use of
force etc. (2-d) view 32, 33 and 34 etc.) (2-e) also, this is consistent, in line and
the same standard has with paragraph 1-a, 1-b, 1-c and 1-d.
3. 18 U.S.C. § 1520 - Destruction of corporate document and video tapes (3-a)
Respondents falsely stated to Petitioner that they (the Respondents) had a
state of the arts video tape showing the Petitioner did not do his job (3-b) the
Petitioner requested to view the video tape and was denied by the
Respondent's (3-c) Petitioner stated to the Honorable Judge Robert Blakey
about 2016 at the Status Hearing, that the Respondent's would not permit the
Petitioner to review the video tape that the Respondents accused (which was
defamation) the Petitioner of not doing his job and when Judge Blakey asked
the Respondents why wasn't the Petitioner allowed to view the video tape, the
Respondent's, response was that they lost the (state of the arts) video tape (3d) also, this is consistent, in line and the same standard has with paragraph 1a, 1-b, 1-c and 1-d.

2 OF 11

4. Constitution - Petitioners First Amendment to the United States Constitution
guarantees the Petitioner and other African Americans rights to peacefully
petition (4-a) the Petitioner and 12 other African Americans signed a Racial
Discrimination Petition(s) that was Notarized by a Notary Public on December
4, 2013 (4-b) on the same day presented to, signed and dated by President of
the Corporations Secretary and (4-c) signed and dated by Human Resources
Representative/employee (4-d) Petitioner was intimidated, bulled, harassed
suspended and terminated to keep the Petitioner from peacefully assembling
petition and that invoked the Respondent's to take egregious action to remove
the Petitioner to (stop the bleeding) or more violation of the constitution (4-e)
Petitioner was terminated for exercising Petitioner and other African
Americans constitutional right with fearing for his life and job etc. (4-f) also,
this is consistent with, in line with and the same violations and standard as in
paragraph 1-a, 1-b and 1-c (4-g) the Petitioner has requested for the
Petitioner's courts appointed counsel's, the Honorable Judge Blakey and the
Court of Appeal Circuit Judges to investigate all the 12 African American who
signed the Petition to see if they were harassed, intimidated or unjustifiably
terminated by Respondent's for exercising their First Amendment
Constitutional Right to Petition and none of them mentioned was willing to do
the right thing of protecting Americans, Native Americans and African
Americans Constitutional Rights (4-h) (view Trial Exhibit 39) (4-i) also, this is
consistent, in line and the same standard has with paragraph 1-a, 1-b, 1-c and
1-d.
5. 18 U.S.C. § 1510 - Obstruction of Criminal Investigation (5-a) view paragraph
1,2 and 3 for details (5-b) view Petitioner Trial Exhibits 41, 31, 32, 33, 34) (5-c)
also, this is consistent, in line and the same standard has with paragraph 1-a,
1-b, 1-c and 1-d.
6. Title 18, U.S.C., Section 245 - Federal Civil Rights Statutes and Federally
Protected Activities (6-a) this statute prohibits willful injury, intimidation, or
interference, or attempt to do so, by force or threat of force of any person or
class of persons etc. (6-b) view paragraphs 1 and 2) (6-c) also, this is consistent,
in line and the same standard has with paragraph 1-a, 1-b, 1-c and 1-d.
7. Title 18 U.S.C., Section 249 - Hate Crimes Prevention Act (7-a) This statute
makes it unlawful to willfully cause bodily injury-or attempting to do so with
their cars etc. (7-b) the crime was committed because of the actual or
perceived race, color, religion, national origin of any person etc. (7-c) tribal
jurisdictions to help them to more effectively investigate, prosecute, and

3 OF 11

prevent hate crimes etc. (7-d) the law provides for a maximum 10-year prison
term, unless death (or attempts to kill) results from the offense etc. (7-e) view
paragraphs 1 and 2 (7-b) also, this is consistent, in line and the same standard
has with paragraph 1-a, 1-b, 1-c and 1-d.
8. Title 18, U.S.C., Section 242 - Deprivation of Rights Under Color of Law (8-a)
this statute makes it a crime for any person acting under color of Law etc. and
protected by the Constitution and laws of the U.S. (8-b) the law further
prohibits a person acting under color of law, statute, ordinance, regulation or
custom to be subjected any person to different punishments, pain or penalties
etc. (8-c) also, this is consistent, in line and the same standard has with
paragraph 1-a, 1-b, 1-c and 1-d.
9. Title 18, U.S.C., Section 241 - Conspiracy Against Rights (9-a) this statute
makes it unlawful for two or more persons to conspire to injure, oppress,
threaten or intimidate any person of any state etc., in the free exercise or
enjoyment of any right or privilege secured to him/her by the Constitution or
the laws of the U.S. etc. (9-b) also, this is consistent, in line and the same
standard has with paragraph 1-a, 1-b, 1-c and 1-d.
10. Title 42, U.S.S., Section 14141 - Pattern and Practice (10-a) this civil statute
was a provision within the Crime Control Act of 1994 etc. (10-b) whenever the
Attorney General has reasonable cause to believe that a violation has
occurred, the Attorney General, for or in the name of the United States, may in
a civil action obtain appropriate equitable and declaratory relief to eliminate
the pattern or practice. (10-c) types of misconduct covered include, among
other things such as Discriminatory Harassment (10-d) also, this is consistent,
in line and the same standard has with paragraph 1-a, 1-b, 1-c and 1-d.
11.18 U.S.C. § 1519 - Destruction, alteration and falsification of records calls for
Federal investigations (11-a) Respondent's egregious surreptitious attempts
and insidious actions to falsify document was harmful, illegal and criminal that
invokes an immediate investigation (11-b) view Trial Exhibit 31 as proof of
facts (11-c) also, this is consistent, in line and the same standard has with
paragraph 1-a, 1-b, 1-c and 1-d.
12.8 U.S. Code § 1324c - Penalties for document fraud (12-a) Respondent's
provided to the Petitioner a falsified document to harm by terminating the
Petitioner to shut him up and to prevent or keep other African Americans from
their First Amendment Constitutional Rights to peacefully petition without
retaliation from their employer's (12-b) also, this is consistent, in line and the
same standard has with paragraph 1-a, 1-b, 1-c and 1-d.

al (o

4 OF 11

13.This is an employment discrimination and Appellant's 13 Courts of Allegations
Case. Jurisdiction in the District Court over the violations alleged under Title VII
of the Civil Rights Act is conferred by 28 U.S.C. §1331, 28 U.S.C. §1343(a)(3)
and 42 U.S.C. §2000e-5(f)(3). Jurisdiction over the violations alleged under 42
U.S.C. §1981 is conferred by 28 U.S.C. §1331, 28 U.S.C. §1343(a)(3) and 42
U.S.C. §1988. Jurisdiction over violations of the Age Discrimination in
Employment Act is conferred by 28 U.S.C. §1331, 29 U.S.C. 626 and 42 U.S.C.
§12117. Jurisdiction over violations of the Sex Discrimination Act (Title Vll of
the Civil Rights Act of 1964) Title IX is a federal civil rights law in the United
States of America that was passed as part of the Education Amendments of
1972. This is Public Law No. 92-318, 86 Stat. 235, codified at 20 U.S.C. §§ 16811688. Wage Discrimination, Job Segregation, and Title Vll of the Civil Rights
Act of 1964,12 U. Mich. J.L. Reform 397 (1978-1979); (13-a) View: Trial
Exhibits (85) of Appellants' Brief, (13-b) Ex. Appellant's first Original filed
Complaint filed on August 3,2015 Appellant's (13-c) Ex. 23 - Subpoenas to
(IDHR) & (EECO) AND (13-d) EX. 42-IDHR Record Related to Other Claims
Against Appellee's and an undated Subpoenas is required to see if the
Respondent's Toxic Racial Discrimination etc. and other despicable actions of
patterns continues (13-e) view ex. 25 of Petitioners 6/18/2019 pending motion
to Second Amended Complaint (13-f) view ex. 82 of Petitioners 6/25/2019
pending Plaintiffs' Status Report (13-g) also, this is consistent, in line and the
same standard has with paragraph 1-a, 1-b, 1-c and 1-d.
14.The rules of law identify it with the fundamental principles of liberalism and
democracy, citing, as constituent elements, the principle of separation of
powers, legality, recognition of individual freedom and equality, judicial review
and the relationship between law and morality (12). Petitioner believes the
Courts are required to immediately "Invoke" an investigation into Appellant's
Civil Right Hate Crime (Federal Statute, 18 U.S. 245 Civil Rights Act), "All
secrets of wrongdoing will eventually come out and Justice will prevail".
II.

Petitioners Constitutional and Statutory Provisions involved below are a
few of the Petitioners allegations that detailed above and was provided in
the Petitioners Brief to the Court of Appeals

1. This is an action for employment discrimination pursuant to Title Vll of the
Civil Rights Act, 42 U.S.C. §1981 and the Age Discrimination in Employment
Act.

5 OF 11

a. View Appellant's Exhibit (I) February 14,2014, Silver Cross's Discovery
Documents SCH000308, SCH000309, SCH000310 and SCH000311, that was
provided to the Appellant through discovery from Appellees;
2. This is an action for employment discrimination pursuant to Title Vll of the
Civil Rights Act of 1964 and 42 U.S.C. §1981 and the Race/Color Discrimination
in Employment Act.
3. This is an action for employment discrimination pursuant to Title Vll of the
Civil Rights Act of 1964,12 U. Mich. J.L. Reform 397 (1978-1979) and Wage
Discrimination and Job Segregation in Employment Act;
a. Appellant December 19, 2013 document signed by (Notary Public) dated
April 8, 2014 for EEOC and Fax dated December 19, 2013 to Tracy P. Ardis
"Begging" to return back to work ASAP and Tracy sent a FedEx December
20, 2013 document stating the Appellant is now on "unpaid" suspension
until contacting EAP, that means "Terminated" and the Appellant had to go
to the Illinois Department Employment Services (IDES) and was required to
try and obtain a Job while receiving Unemployment benefits and the
Appellees had to agree and approve to the Appellant termination to pay
benefits, for the Appellant not being Employed by them anymore. If anyone
who have received Unemployment benefits knows this;
b. View Exhibit (L) document in Appellant's first Original filed Complaint filed
dated August 3, 2015, regards to July 18, 2011 document titled
("Sex/Gender Discrimination, Name Calling Harassments, Retaliation and
Misleading Pay Issues in Sterile Processing Department") and (this is also a
"Hate Crime" that should be investigated) and that has been provided to
the Appellees through discovery;
4. This is an action for employment discrimination pursuant to Title Vll of the
Civil Rights Act of 1964, This is Public Law No. 92-318, 86 Stat. 235, codified at
20 U.S.C. §§ 1681-1688 and the Sex Discrimination in Employment Act.
a. Appellant Pleads to the Court and the Honorable Judge John Robert Blakey
to permit the Appellant to resubmit, the Appellant's second reply Motion
to the Appellees Motion for Partial Summary Judgment to the Appellant's
Sex/Gender Allegation due to the Appellees argument that the Sex/Gender
incident occurred outside the statute of limitations;

2,8-

6 OF 11

5. Appellant are not arguing the point that the one Sterile Processing
Department incident with Debbie Olea a/k/a Debbie Ohla was not outside the
statute of limitations, but the Appellant argument is that the Debbie Olea
incident was a history of a pattern to all the other Sex/Gender incidents that
the Appellant has detailed in his Motion filed on May 8, 2018.
6. While working in the Sterile Processing Department only one African
American employee was male working in the SPD department when the
Appellant started, and he passed away. Appellant was intentionally
discriminated against by the Appellees and his Supervisor, person of
Authority, because of his gender in matters that included, but were not
necessarily limited to the following:
a. Appellant's female supervisor, Debbie Olea a/k/a Debbie Ohla a/k/a Debbie
Olha, regularly made despicable, derogatory, discriminatory and hateful
comments to Appellant about his gender. She told Appellant that "She
hated men", that "Men are the scum of the earth", that "Men could not
clean her dogs' poop" and other derogatory remarks about men;
b. View Exhibit (Q) in Appellant's April 9, 2014 document signed by (Notary
Public on April 17, 2014) to Tracy P. Ardis, Paul Pawlak and Mark Jepson;
c. Appellant reported this to Jim Tyrell Sterile Processing Whom was the new
Department Director on July 18,2011 and Dehlia Hatten Jim Tyrell's and
Appellant Supervisor, that has been provided to the Appellees through
discovery;
d. Nothing was done in regards to Debbie's racist gender/Sexual remarks and
more factual evidence will be provided through discovery to show the
continuous Toxic Racial Discrimination African Americans had to deal with
and the Appellees will not be able to provide any documentation of any
inquiries nor investigations of the incidents that was provided to them by
the Appellant and this type of continuous behavior must be investigated
through discovery etc.;
e. View Appellant Exhibit (U) document dated August 3, 2015/July 18, 2011
titled ("Sex/Gender Discrimination, Name Calling Harassments, Retaliation
and Misleading Pay Issues in Sterile Processing Department") and (this is
also a "Hate Crime" that should be investigated) and that has been
provided to the Appellees through discovery;

2.1

7 OF 11

7. After the President Paul Pawlak, MarkJepson, Tracy P. Ardis, Dan Thomas,
John Farrell and others shown no concerns after being given a considerable
amount of time and they made more attempts to cover it up and sweep it
under the rug, so the Appellant had to go to the New Lenox Police
Department on November 26, 2013;
a. Regarding three of the Respondents non-African American
employees Plotted to Kill an African American co-worker, the
Petitioner, the three disturb individuals admitted to their Executive
Employer's they plotted to kill the Petitioner and two attempts was
made on the Petitioners life without the Petitioner becoming aware
of the plot.
b. This is only one of the Appellants 13 Separate Counts of Allegations,
that stated in this document;
c. Appellees continues to "Create a Hostile Workplace Environment";
d. Appellees continues to coverup "Hate Crimes";
e. The Appellees actions of "Gross Negligence" (1) are a vital and
relevant part of the Appellant's "Damages" by the Appellees
'Malicious" "Toxic Discriminatory Actions" of "Intentional Intent"
of "Recklessness" Actions etc. (2) the Appellees gross negligence,
disturbing carelessness that recklessly disregard the safety and lives
of the Appellant and Others which was a "Conscious Violation of
other people's rights and safety, it was more than simple
inadvertence, but it was and is just being "Intentionally Evil" (3) the
Appellees Gross Negligence is a conscious and voluntary disregard of
the need to use reasonable care, which to cause foreseeable grave
injury or harm to persons and property in which the Appellees
conduct was "Extreme" etc.;
tt tt

8. On or about December 4, 2013, Appellant, Fred Cartwright delivered a
petition titled "RACIAL DISCRIMINATION" to the Appellees, that was signed by
Appellant, (12) co-workers (African American Employees) that were having
problems with racial discrimination to Paul Pawlak, the President and Chief
Executive Officer of Silver Cross Hospital and to Human Resources;

8 OF 11

a. Appellees "Criminally" violated the Appellant's "Constitutional
Rights" by preventing the Appellant's "Rights of Freedom of Speech"
and the Appellant's of "Right to Petition";
b. Appellees continues to "Create a Hostile Workplace Environment";
c. Appellees continues to coverup "Hate Crimes";
d. Other similarly situated white and non-African Americans employees
that had not submitted a petition on racial discrimination to their
employer were not suspended and were not required to go to the
Employee Assistance Program even though they committed worse
acts than those the Appellees claimed Appellant engaged in;
e. Appellees "Criminally" violated the Appellant's "Constitutional
Rights" by preventing the Appellant s "Rights of Freedom of Speech"
and the Appellant's of "Right to Petition";
A. Appellant was suspended without pay on or about December 18,
2013 and later terminated from his employment and was forced to
sign up for Unemployment benefits at the Illinois Department
Employment Services (IDES);
a. IDES decision was the Appellee's termination of the Appellant was
ruled Unfair, Racially Motivated, Violation of the Appellees own
Rules, Policies and Federal Laws, by the Appellant understanding;
b. The Appellees was given an opportunity to respond, deny or reject
the IDES Ruling of the Appellant unfair termination by the Appellees;
9. Appellant was granted Unemployment Benefits and the policy of receiving or
collecting benefits, the Appellant has to continue to look for work while
receiving benefits, that the Appellant continue to do with no success and
need Doctors care and Counseling to help the Appellant with his damages and
illness that he vitally needed, due to the Appellees disturbing, vicious unstable
and reckless Discriminatory etc. behaviors of the Appellant (13) Count
Allegations.
10.WHEREFORE, Appellant demands that he be awarded all available appropriate
injunctive relief, lost wages, back pay, liquidated damages, back pay, front
pay, compensatory damages, punitive damages, pre-judgement interest, post
judgment interest and all costs including attorney fees and expert witness
fees allowed by Title VII (42 U.S.C. 2000e-5(k), 42 U.S.C. 1988 and the Age
Discrimination in Employment Act (29 U.S.C. 626(b) & 29 U.S.C. 216(b).

3I

9 OF 11

Appellant further demands that the Court grant such other relief as the court
may find appropriate;
ll.Appellant is requesting Civil Damages that are usually monetary awards due
to Appellant winning in the Court of Law and can be general, punitive or any
combination of Civil Damages and Compensatory Damages;
a. The Appellant's Physician has currently prescribed the Appellant,
"Escitalopram" and "Venlafaxine" for Appellants (PTSD) post-traumatic
stress disorder, mental disorder, depression and anxiety, sleepless
nights of nightmares of being killed by co-workers etc.
b. The Appellant was being treated and cared for by Appellant
Therapist/Counselors whom was acquired or consulted by Appellants
Physician for additional evaluation form another Professional Scholar of
the medical field, (b-1) Appellants Therapist/Counselor "Suspiciously"
refuse to continue working with the Appellant as her Client, after the
Respondents revealed the names of all the Appellants Caregivers (b-3)
after the Appellant file a motion for the Respondent's not to contact
the Appellant Caregivers with the presiding Judge Blakey's or the
Appellants permission or approval, (b-4) the Appellant believes the Civil
Case No. l5-cv-06759 should be fully investigated to expose the
unfairness, misrepresentation, conspiracy and corruptness by the
Respondent's, Federal Judge Blakey, Appellants Court appointed
Attorney's for fair justification for all Parties, but the opposing Parties
have did their best to deceive, deny and coverup their out of control
mass to avoid Prosecution etc.
c. The Appellant's Psychiatrist was acquired or consulted by Appellants
Therapist/Counselors for additional evaluation form another
Professional Scholar of the medical field, whom prescribed medication
of "Quetiapine" and "Clonazepam".
12.Expert was requested in civil case;
a. Appellant's Physician, Psychiatrist and Counselors;
b. Forensic scientific methods and techniques of documents maybe
needed;
13.Jury Trial Demanded in civil case;

3^

10 OF 11

14.Petitioner are still open to meet and confer;
15. Petitioner are open to continue a "Fair Mediation" by starting from our June
12, 2017 Settlement Conference Hearing Negotiation that was mediated by
the Honorable (Petitioner thought) Judge John Robert Blakey's, whom
statement was to the Petitioner was "you can't negotiate with me", while we
were in the middle of Settlement Conference Hearing "Negotiating", who
would have thought Judges or anyone in the Justice System could act like this.
16.WHEREFORE, Appellant demands that he be awarded all available appropriate
injunctive relief, lost wages, back pay, liquidated damages, back pay, front
pay, compensatory damages, punitive damages, pre-judgement interest, post
judgment interest and all costs including attorney fees and expert witness
fees allowed by Title VII (42 U.S.C. 2000e-5(k)), 42 U.S.C. 1988 and the Age
Discrimination in Employment Act (29 U.S.C. 626(b) & 29 U.S.C. 216(b)).
Appellant further demands that the Court grant such other relief as the court
may find appropriate;

Respectfully Submitted,

DATED: November 4, 2020

/s/ Fred Cartwright

11 OF 11

STATEMENT OF THE CASE
This is an employment discrimination and Appellant's 13 Separate Courts of
Allegations Case. Jurisdiction in the District Court over the violations alleged
under Title Vll of the Civil Rights Act is conferred by 28 U.S.C. §1331, 28 U.S.C.
§1343(a)(3) and 42 U.S.C. §2000e-5(f)(3). Jurisdiction over the violations alleged
under 42 U.S.C. §1981 is conferred by 28 U.S.C. §1331, 28 U.S.C. §1343(a)(3) and
42 U.S.C. §1988. Jurisdiction over violations of the Age Discrimination in
Employment Act is conferred by 28 U.S.C. §1331, 29 U.S.C. 626 and 42 U.S.C.
§12117.
LEGAL STANDARD
District courts have broad discretion when ruling on discovery-related issues,
including motions to compel brought under Rule 37(a). See Peals v. Terre Haute
Police Dep't, 535 F.3d 621, 629 (7th Cir. 2008); see also Fed. R. Civ. P. 37(a). If a
party fails to properly respond to written discovery, the party that propounded
the discovery may move for an order compelling an answer. Fed. R. Civ. P.
37(a)(3)(B). "For the purposes of a motion to compel under Rule 37(a), 'an evasive
or incomplete disclosure, answer, or response is to be treated as a failure to
disclose, answer or respond." Jones v. Syntex Labs., 2001 U.S. Dist. LEXIS 17926, at
*4 (N.D. III. 2011) (citing Fed. R. Civ. P. 37(a)(3).
II.

PETITIONER'S FIRST ARGUMENT REGARDING RESPONDENT'S
BEFORE THE JUNE 25. 2019 "ERRONEOUS DISMISSAL"
"WITH PREJUDICE" ERROR

Discrimination and Petitioner's (13) Separate Counts of Allegations etc. can
be proven through factual and circumstantial evidence, which typically includes
"(1) suspicious timing, ambiguous oral or written statements, or behavior toward
or comments directed at other employees in the protected group; (2) evidence,
whether or not rigorously statistical, that similarly situated employees outside the
protected class received systematically better treatment; and (3) evidence that the
employee was qualified for the job in question but was passed over in favor of a
person outside the protected class and the employer's reason is a pretext for
discrimination."). Mullin v. Temco Machinery, Inc., 732 F.3d 772, 776 (7th Cir.
2013). Proof of "behavior toward or comments directed at other employees in the

protected group" can support an inference of discrimination). See Zafar Hasan v.
Foley & Lardner LLP, 552 F.3d 520, 529 (7th Cir. 2008). (view Trial Exhibits 56 of
motions filed "June 10, 2019", "June 25, 2019", "June 26, 2019", "July 11, 2019",
"June 24, 2019 unfinish Status Report") and ("ex. 82 June 25, 2019 Status Report
etc"), (ex. 25 June 18, 2019 Pending Motion to Petitioner's Second Amended
Complaint), (view ex. 27, February 14, 2014 EVS Employees Discrimination
discovery document provide by Respondents), (view "ex. 34 Police report", "ex. 39
12/4/2013 signed Discrimination Petition by 12 African Americans employees of
the Respondent's", "ex. 32 Re; Civil Rights Hate Crime of three non-African
Americans Plot to Kill an African American (the Petitioner) while making two
attempts without Petitioner being aware"), (view all Trial Exhibits)
Here, in addition to the direct evidence supporting his case, Petitioner
intends to support his case through more factual evidence than circumstantial
evidence. As such, Petitioner has requested, among other things, documents and
information relating to other employees similarly situated as Petitioner during the
time Petitioner was employed by Respondent's. Petitioner has requested
personnel files for employees who worked in the same department as Petitioner
during the period Petitioner was employed by Respondent's. Petitioner has also
asked for information relating to claims asserted by other employees against
Respondent's, (view ex. 23, A/K/A ex. 42 of January 29, 2018 Subpoenas response
from (IDHR & EEOC) records relating to other claims against the Respondent's etc.)
and (view all Petitioners Trial Exhibits for complete factual details of evidence)
Respondent's refusal to provide any information about other employees and
other claims plainly lacks merit. Petitioner is entitled to this information because
the treatment of similarly situated employees is a recognized and accepted method
of proving discrimination. Davis v. Precoat Metals, No. 01 C 5689, 2002 U.S. Dist.
LEXIS 13851, at *3-*7 ,*8-*13 (N.D. III. July 26, 2002) (noting that "other
Respondent's complaints of discrimination may be relevant to establish pretext,"
and granting Petitioners' motion to compel production of personnel and
disciplinary files of all non-clerical/non-administrative employees who worked at
Respondent's plant for five-year period of Petitioners employment from 2008 thru
2013). Petitioner has acquired January 29, 2018 document from the "Illinois
Department of Human Rights" of the Respondent's patterns of other "charges,
complaints, and claims that is relevant information filed against them, "just" from
1/1/2008 to 12/31/2014. That proves the Respondents are withholding from the
Petitioner of the treatment of similarly situated employees is a recognized and
accepted method of proving discrimination etc. as discovery and discoverable

information that is relevant and significant documentation of evidence, view ex.
23, A/K/A ex. 42 of Trial Exhibits.
Additionally, Petitioner has identified over 70 individuals who may have
information supporting his claims against the Respondent's. All, or most, of the 70
plus witnesses were employed by Respondents at some time during the period
Petitioner was employed by Respondent's. Petitioner has requested that the
Respondent's provide the last known contact information for the witnesses, and
the witnesses' titles or positions during the time they were employed by
Respondent's. Respondent's has objected to all Petitioners allegations, claiming
that Petitioner seeks information relating to time periods that have no relevance
to Petitioner or in the Petitioners (13) separate counts of allegations in his
complaint, (view Trial Exhibit 42 for details of witnesses etc.), (ex. 35
interrogatories by Brian T. Maye & Shane B. Nichols on 11/9/17 ex. 36 notice to
compel discovery).
Contrary to Respondent's assertion, Petitioner is entitled to information
covering the entire time period he was employed by Respondent's, because
conduct that may be barred by the statute of limitations may still be used to
support timely filed claims. Ahad v. Southern Illinois School of Medicine, 2016 U.S.
Dist. LEXIS 68430, at *4-*5 (C.D. III. May 25, 2016) (denying motion to strike
paragraphs in complaint as time-barred because "[cjonduct that is not actionable
may still provide relevant background information to support timely claims"); see
also AMTRAK v. Morgan, 536 U.S. 101, 113 (2002) (holding that even if
discriminatory act is time barred, it does not prevent an employee from using the
prior acts as background evidence in support of a timely claim"). Inexplicably,
Respondent's has produced a very limited number of internal emails, and many
have been redacted without a privilege log having been produced, (view Petitioners
entire Trial Exhibit documentations of documents for proof of prior and other acts
and ex. 69 May 8, 2018 motion Regarding the Petitioners reply to Judge Blakey's
partial summary judgment filed May 9, 2018), (view ex. 25 of Petitioners June 18,
2019 motion of Pending Second Amended Complaint) and (ex. 69 of Petitioners
May 8, 2018 Reply to Partial Summary Judgment filed 5/9/2018), (ex. 27 of
February 14, 2014 EVS Discrimination document from Respondent's Employees),
(view all Petitioners Trial Exhibit for more factual details of evidence).
In addition to its failure to produce clearly discoverable information,
Respondent's has asserted that Petitioner can only contact witnesses through
counsel for Respondent's. Respondent's asserts this without providing any
information about the witnesses' employment status, job title, or the basis for an

invocation of attorney-client privilege. In short, Respondent's and Respondent's
Counsel's has asserted a blanket attorney-client privilege covering all witnesses and
potential witnesses without providing any support for such invocation, (view Trial
Exhibit 28 of Petitioners Court appointed Counsel's Brian T. Maye's May 31, 2017
demand letter with relevant attachments of (1) First Amended Complaint filed
10/14/16 by John F. Donahue, (2) signed petition by 12 African Americans
employees, (3) February 14, 2014 Discrimination document provided by
Respondents, (4) Falsified documents by Respondents, December 20, 2013
suspension/termination letter).
Petitioner filed this lawsuit almost (5) years ago August 3, 2015. Since that
time, Respondent's has produced a very limited amount of information it possesses
relating to this litigation. Petitioner asks this Court to order Respondent's to
provide supplemental responses to Petitioner's First Set of Interrogatories and
Document Requests, and produce information (that the Petitioner revise and
resubmitted motions and noticed for presentment on 6/11/19 that Judge Blakey
were referring to as "Recycled" in his 6/3/2019 in the Judge's Docket Text minute
entry Doc. No. 228), (revised, due to Petitioners Court appointed Counsel's has
abandoned all motions and noticed for presentment, due to the withdrawal as
Petitioners Counsel's) and documents identified in its Rule 37 Letter. In particular,
but not to exclusion of other information and documents demanded herein,
Petitioner asks that Respondent's be ordered to produce the following:
1. Name, address and contact information (personal phone number and email)
for all employees who worked in the same departments as Petitioner during
the time period Petitioner was employed by Respondent's (November 2008
to June 2014);
a. Each department of which Petitioner has work, which was (1)
Environmental Services Department (EVS) as a Floor Technician from
2008 thru 2013, full time and part time, (2) Sterile Processing
Department (SPD) in 2011, (3) Behavior Health Department (BHD)
2012 (4) Petitioner worked in EVS "part time" and SPD at the same
time (5) Petitioner worked in BHD "part time" and EVS at the same
time;
2. The last known contact, dates of employment and job title of all witnesses
identified by Petitioner in;

a. Trial Exhibit 65 - June 18, 2019 Gmail sent to Respondent's on
September 22, 2019 of Crothall's first 9 witnesses and Silver Cross first
11 witnesses to be depose for deposition;
b. Trial Exhibit 42 - June 18, 2019 witnesses to Respondent's on
September 22, 2019;
c. Trial Exhibit 66 - February 24, 2016 Petitioners initial witness list;
3. For all witnesses identified by Petitioner, identify each individual, if any,
Respondent's is invoking attorney-client privilege on behalf of such
individual. For each invocation, identify in a privilege log the date or dates on
which Respondent's claims the witness participated in communication
covered by attorney-client privilege. Also, describe the subject matter
discussed and the individual(s) involved in the communication with the
witness.
4. All data, material, documents, information, etc. identified through an
electronically stored information (ESI) search of Respondent's servers,
including email accounts, using search terms provided by Petitioner,
covering the period Petitioner was employed by Respondent's.
5. All documents, including, but not limited to, memoranda, reports, emails,
statements, correspondence, etc., prepared by, sent by or received by
Respondent's relating to Fred Cartwright covering the period Petitioner was
employed by Respondent's.
6. The personnel records for all employees who were assigned to the same
departments as Petitioner during the time Petitioner was employed by
Respondent's.
7. All documents and information regarding complaints, grievances, lawsuits,
claims, administrative actions or allegations relating to alleged to the
Petitioner's (13) Separate Counts of Allegations such as discrimination,
harassment, hostile work environment etc., or retaliatory termination based
on race, age or gender by or against a Silver Cross or Crothall employees
covering the period Petitioner was employed by Respondent's.
(a) View Petitioners Trial Exhibits as in paragraph 2 - a, b and c.

33

8. Surveillance recording that Respondent's claims provided the basis to
discipline Petitioner in late 2013. Additionally, provide
(a) the identity of the individual or individuals who viewed the recording;
(b) the identity of the individual or individuals who were responsible for
maintaining the recording, and;
(c) produce its policies and procedures relating to maintaining and
retaining surveillance recordings;
(d) all documents of investigation of each and every incident mentioned
by the Respondent's and the Petitioners and in the Petitioners 13
separate counts of allegations.
9. Respondent's document retention policy if not have already done so.
10.Respondent's policies, practices, etc. as to assigning an employee to EAP, if
not have already done so.
11.Respondent's organizational chart(s) in effect at the time Petitioner was
employed.
12.Communications with, and information provided to, Respondent's insurer
regarding Petitioner's claims against Respondent's.
13.During the time period Petitioner was employed by Respondent's,
communications with, and information provided to, Respondent's insurer
regarding any claims, complaints, or allegations that Respondent's or any
of its employees or supervisors discriminated on the basis of race, gender
or age.
In addition to its failure to produce clearly discoverable information,
Respondent's has asserted that Petitioner can only contact witnesses through
counsel for Respondent's. Respondent's asserts this without providing any
information about the witnesses' employment status, job title, or the basis for an
invocation of attorney-client privilege. In short, Respondent's has asserted a
blanket attorney-client privilege covering all witnesses and potential witnesses
without providing any support for such invocation.
III.

PETITIONER'S SECOND ARGUMENT REGARDING RESPONDENT'S

BEFORE THE JUNE 25, 2019 ERRONEOUS DISMISSCAL ERROR
By the Petitioner challenging the Court and Judge Blakey, the Petitioner
hopes to advise everyone to be aware of the unjustifiable treatments the
Petitioner experienced by the Judge John Robert Blakey retaliative motive,
Petitioner's Ex-Legal Counsel's and the Respondents, before the June 25, 2019
"Erroneous Dismissal" "With Prejudice" and throughout Petitioners Civil Case
preceding are fraudulent misrepresentation, dereliction of duty, abuse of
authority and abuse of duties etc. (view Petitioners Trial Exhibit 57)
Petitioner request for all Petitioner documentation that have been
provided to the Respondent's as Petitioner's discovery information and all
documents provided as Trial Exhibits for Petitioner's appeal and admit Petitioner's
September 22, 2019 filings Docketing Statements, Courts Reporters Transcript
(that the Petitioner requested and was denied access to and denied viewing
Transcripts) and Court of Appeals requested Trial Exhibits documents be added as
the Second Part of Petitioner's Brief as significant, vital and relevant information
that supports the Petitioner's October 7, 2019 deadline Brief. Petitioner has
provided numerous of documents through the United States District Court for the
Northern District of Illinois as requested after the June 25, 2019 dismissal that
Petitioner requested to be viewed as vital, significant and relevant for this
Petitioner's Brief.
Due to the Petitioners beliefs and knowledge of the Respondent's racist,
abusive, disturbing, demonizing reputation of particular habits, characteristic and
patterns of systematically plotting, falsifying documents, destroying documents,
destroying state of the arts video tape, "supporting, ignoring, intentional covering
up, assisting in protecting criminal activities of dangerous criminals of non-African
American whom are involved in an Civil Rights Hate Crime of three of the
Respondents employees Plotting to kill a co-worker, an African American (the
Petitioner), while making two attempts with their vehicle's without the Petitioner
being aware of the Plot etc. that all Respondents actions cause serve damages
(view Petitioners Trial Exhibits 88-1 and 88-2 of Petitioner's Doctors, Psychiatrist
and Therapist/Counsel's treatments with meditations and evaluations), with the
Respondents illegal acts of obstruction of Justice etc. and taking advantage of
their unfair, unjustifiable and unlimited scope of influencing, power and wealth,
with their engaging and engagements in unethical and immoral behaviors of
collaborating, conspiracies, collusions, as a conspirators of the Respondents illegal
actions of plotting, falsifying documents, potential destroying documents,

potential destroying state of the arts video tapes and destroying of any and all
evidence that that the Petitioner can prove through the "Truthfulness", "Factual
Evidence" and with an "Entourage of Witnesses" and Discovery (through the
Discovery process, view Petitioners Trial Exhibits).

REASONS FOR GRANTING THE PETITION
I.

Petitioners Plea For Special Consideration, While Under Exceptional
Circumstances And Human Decency

Petitioner filed this Case August 3, 2015 and the Petitioner is 66 years of age,
separated from his wife of marriage after about 35 years of 40 years without any
spousal abuse issues etc. and now, no spouse and no spousal support etc. Due to
Petitioners wife not being educated about mental illnesses etc. of the damages of
suffering the Petitioner endured and sustained while working for the
Respondent's, due to a Hate Crime and other disturbing recklessness of
unpresidential allegations of incidents filed, that occurred while working under
the watchful eyes of a "Select Few of Racist Dysfunctional Individuals" such as,
"Executive's" of the Respondent's with "Power and Control" that's related to
Blacks/African Americans "SLAVE MASTERS". No one wants to hear the truth, but
after what the Petitioner have been through and continues to go through, I, the
Petitioners "DON'T GIVE A DAME" about what people don't want to hear. This
Disturbing and Dysfunctional story are now of public records and will be told to be
transparent or exposed for transparency, for the truth of how Blacks/African
American are "Victimized", "Exploited" and "Violated within the Systemic Racist
Disease infested Court's System and Systemic Justice System, that "Guarantees"
and "Designed" for White's to keep the upper hand over "Blacks", despite the
Truth, a sea of Factual Evidence, a tsunami number of Witnesses and with an
Admission of the Guilt to/of a Racist Plotted Hate Crime/truth, that the Three
Racist Dysfunctional Non-African American Employees of the Respondent's
Admitted to their Employers, the Respondents of Plotting to Kill a Black Man Co­
worker with their vehicles, by running the Petitioner off the road. The "Select Few
of Racist Dysfunctional Individuals" such as, "Few" "Select" "Executive's" of the
Respondents are more of a Criminal and Corrupt than the Three Racist NonAfrican American Criminals whom are employed by the Respondents. The Three
Racist Hate Crime Criminals was not punished, suspended nor terminated, but
protected, sheltered and harbored by their Employers, the Respondents.
The Petitioner care less about how Racist people views this Case, because
Black People are going to continue be treated like this, whether the Petitioner
receive his Appeal, win his Appeal or not win his Appeal etc. Petitioner has been
suffering for a long time, due to the damages caused by the Respondents racial
discrimination, toxic, abusive, malice and recklessness of behaviors etc. The

Petitioner has been requesting Doctors Assistances from Petitioners Courts
appointed Counsels since 2016 with unusual and unexplainable disregard and the
same from the Honorable Judge John Robert Blakey etc., due to the Petitioner not
having any insurance until Obama Care was acquired by Petitioners family's
doctor etc. At the October 10, 2018 Status Hearing, the Petitioner stated to Judge
Blakey that, he the Petitioner has finally obtained Doctors assistance to help with
the Petitioners mental medical issues etc. and Judge Blakey statement was that
he was pleased to hear I have a Doctor now, something like that. There are more
details of Judge Blakey's questionable statements listed below.
II.

Petitioners Mental, Physical and Medical Disorder With (PTSD) PostTraumatic Stress Disorder Emergency Plea

What was so ironically disturbing and twistedly deranged about this is, (a) the
Respondents of Silver Cross Hospital and medical Centers, (with Crothall
Healthcare Inc. having full knowledge, due to their history of medical institutions
involvement etc.), are believed to be or have been ex and former Doctors,
Surgeons and Professionals believed to have been scholars of highly respectable
White Collar individuals in most cases of the medical field etc., especially the
Respondents Executives involved in the Petitioners Civil Case, whom have treated
patients whom are or have been in similar situations etc. or with the same or
similar mental condition as in the Petitioners condition or (a-1) have some
knowledge of the Petitioners condition or (a-2) have family members whom were
dealing with similar or the same mental and physical issues as the Petitioner (b)
the Petitioner has made numerous of pleading for an extension of time through
special consideration and exceptional circumstances of human decency between
right and wrong while enduring vital and significant mental, physical and medical
conditions, while, also presently dealing with (PTSD) post-traumatic stress
disorder while pleading to all parties regarding the Petitioners Chronic Illnesses (c)
the Petitioners has made numerous reasonable attempt to delay all proceeding
until the Petitioners can properly be treated and cared for by Petitioners Doctors,
Psychiatrist and Therapist/Counselors (c-1)
III.

Supreme Court for the United State has an Opportunity to Correct the
Wrong of Others and the Petitioner Would Like to Regain High Confidence
Within the Justice System for All People

On October 3, 2020 the Petitioner by via mailed Appellants' Motion Request
for Extension of time for Petitioner to be treated by caregivers to be able to
obtain Counseling "Before Filing" an Petition for Writ of Certiorari to the Supreme
Court, (a) under special consideration and exceptional circumstances of human
decency to allow the Petitioner something reasonable, like permit the Petitioner
time to be treated and cared for Petitioners mental illnesses etc. (a-1) Permitting
the Petitioner the time would benefit everyone at this time of the rising
coronavirus Pandemic such as the Supreme Court, Judges and Attorneys of all
parties from unnecessary precious valuable time to do other important things
such as preventing unnecessary travel, costs and to spend more valuable time
with their families, something the Petitioner wish he could do, just thank of
everything the Petitioner has not been able to do, the same as you and others, (b)
On October 6, 2020 Petitioner received from the Supreme Court's a "Guide for
Prospective Indigent Petitioners for Writs of Certiorari" form, that is still difficult
and incapable for the Petitioner focus and concentrate due to the Petitioners
physical mental, medical and (PTSD) post-traumatic stress disorder issues (as Trial
Exhibit 101) (b) a "MEMORANDUM to those intending to prepare a Petition for a
Writ of Certiorari in booklet format and pay the $300 Docket Fee" (as Trial Exhibit
100) (c) this was an difficult process and unable to achieve for the Petitioners, due
to Petitioners ongoing disabilities and incapability's disorders, under Doctors
Orders, dealing with (PTSD) post-traumatic stress disorder, physical and mental
disabilities, while Petitioner not being able to concentrate and focus, (d) the
Petitioner has provided medical documents of Petitioners Psychiatrists evaluation
as Appendix G and Trial Exhibit 88-1 (e) the Petitioner has provided medical
document of Petitioners Therapist/Counselors evaluation as Appendix H and Trial
Exhibit 88-2

A. Petitioner has filed numerous of appeals for extension of time to be treated
for damages, and this appeal for an extension of time due to the Plaintiffs
inability and incapability to concentrate or focus under considerable
amount of depression, stress, anxiety, nightmares of sleepless nights etc.
and (1) Plaintiff has been continuously under Plaintiffs Doctors,
Psychiatrists and Counselors medication, treatment and care. Plaintiffs
care givers has placed their patient under critical and vital restrictions such
as, (1-a) Plaintiff Doctors 3/11/2019 and 2/20/2019 excuse slip restricted
Plaintiff from traveling and (1-b) restricted Plaintiff from sitting in

depositions, meetings or group sections etc. for long periods of time and (1c) restricted Plaintiff from being around and among large crowds and
groups of people. The Plaintiff incapacitated disabilities and unstable
medical conditions cause the Plaintiff to be not physically and mentally
capable of understanding or dealing with this type of appeal issue at this
time without caregivers treatment and care (2) the Petitioner has reached
out to the presiding Federal Judge John Robert Blakey for fair
representation, (2-a) for an extension of time to delay depositions and oral
arguments etc., (2-b) to prevent unjustifiable justice until Petitioner can
abide his Doctors orders and properly be treated and evaluated by
Psychiatrist and (2-c) Therapist/Counselors whom consulted Psychiatrist
and Petitioners Doctors whom first consulted with Therapist/Counselors,
for more accurate and precise evaluation from the medical practice of
Scholars of the medical Professional to "Prevent" and "Avoid Unjustifiable"
decisions to avoid unwarranted delays and cost to the Respondent's,
Federal Court, Court of Appeal's and the same for the Supreme Court (3)
view 3/21/2019 No. 194 Docket text, Judge Blakey bias behaviors was
demonstrated in one of Judge Blakey's tactical statements was (3-a) "Even
through Plaintiff might benefit from being evaluated by a psychiatrist, the
motion and provide no evidentiary details upon which the request for delay
remains based, and provide no basis to believe, given the prior record in
this case, that Plaintiff will actually pursue such an evaluation by any certain
date(if at all) etc." (3-b) Petitioner believes he should have been given the
time and opportunity to consult with Psychiatrist and Therapist/Counselors
for treatment and care for fair justice, fair and equal rights under the laws
of the Constitution etc. (4) Justice is the concept of moral rightness based
on ethics, rationality, law, fairness, religion and/or equity. Justice if is the
result of the fair and administration of law. It is the quality of being just: in
conformity to truth and reality in expressing opinions and in conduct:
honesty: fidelity: impartiality of just treatment: fair representation of facts
respecting merit or demerit. It also can refer to a person duly
commissioned to hold court sessions, to try and decide controversies and
administer justice. (This was more finding researched information for
justice of the laws) (5) Petitioner provided to the Court of Appeal, Circuit
Judge Amy Coney Barrett copies of (5-a) Petitioners Psychiatrist's April 30,
2019 dated evaluation and (5-b) Petitioner's Therapist/Counselor's October
29,2019 dated evaluations through and under the Petitioner's Doctor's

control, in the Petitioners December 27, 2019 motion response to
Respondent's Brief, for the purpose of providing the Petitioner extension of
time that was also requested in Petitioners December 23, 2019 motion the
Petitioners provided to Circuit Judge Amy Coney Barrett for an extension
for time to be properly treated and cared for by caregivers for fairness
under the equal justice act and under the rights of the constitution laws
etc., that was denied also by Amy Coney Barrett.
B. That is why (1) the Petitioner were filing numerous of motions of
considerations for (1-a) motions of reconsiderations, (1-b) motions
appealing different issues, (1-c) motions for proper representation by
Counsel and (1-d) giver the Petitioner proper time to be consulted care and
treatment by Petitioners caregivers (2) for the Honorable Judge Blakey to
recuse himself from the Plaintiff's Civil Case (view Docket text of No. 140
minute entry before Judge Blakey, Petitioner asked for Judge Blakey to
"Recuse Himself' believed to have been on 5/30/2018 DKT: No. 140 minute
entry)
(2-a) due to Judge Blakey's racially bias unstable behaviors, unfair
statements, unfair rulings, bullying, retaliations etc. (2-b) Judge refuse to
delay making critical rulings and court orders until Judge Blakey make his
mind up on if he would appoint the Plaintiff new counsel or not (view DKT:
No. 140) (2-c) view same DKT: No. 140 for more information
(3)
In Docket text No. 218 minute entry before Judge Blakey's "Untrue" stated
"No sealing order has been entered in this Case" "An conceal order was
placed by Federal Judge Blakey on February 20, 2018 regarding Petitioners
Court appointed Counsel Brian T. Maye Withdraw as Counsel and Filed by
Brian T. Maye through Judge Blakey's Order, that was suggested by
Petitioner, due to no Legal knowledge that Judge Blakey was fully aware of'
or (view
Judge Blakey's residing behavior over the Plaintiff and the
Defendants June 12, 2017 mediation that demonstrated bias, unfair, one­
sided mediating, mediation rules were unjustified, questionable and all
should be investigated. Judge Blakey's "Unjustifiable Dismissal" of this Case
"With Prejudice" that the Plaintiffs believes was revenge of retaliation that
justifies the Plaintiffs appeal and a review of Judge Blakey's personal
issues, patterns of incidents and patterns of favoritism throughout this Case
(view Docket text of No. 140 minute entry before Judge Blakey, Petitioner
asked forjudge Blakey to "Recuse Himself' believed to have been on

(view Memorandum opinion and order by Judge Blakey on 4/30/2018 of Judge
Blakey response to the Petitioners request for Judge Blakey to recuse "itself" in
Blakey's word")
(view May 10, 2018 Docket text No. 123 minute entry before Judge Blakey of,
Judge Blakey honoring his own decision to make partial summary judgment on,
where the Respondent's "Created an hostile workplace environment" in which
the Respondent's never filed an motion to dismiss that Separate Allegation of the
Petitioner and the Petitioners allegation "Respondent's Created an hostile
workplace environment" is a part of all the Petitioners 13 separate counts of
allegations and not just on the sex/gender allegation, that Judge Blakey is fully
aware of and continued his Bias personal tactical court orders and rulings that
benefits the Respondent's throughout the Respondent's Civil Case that the
Petitioner believes stated 2016. Before that, the Petitioner had full confidence in
the Honorable Judge John Robert Blakey and then the June 12, 2017 Settlement
Conference Hearing took place where Judge Blakey resided over, that was bias,
unfair for Petitioner, where Petitioner's Court appointed Brian T. Maye and his
assistant was threatened, intimidated and bulled by Judge Blakey that cause the
Counsel's to shut-down by not continuing with their argument, out of fear of
retaliation from higher power (Judge Blakey) their Boss who appointed them
(view Petitioners exhibits 28 demand letter from Counsel, ex. 30 letter to Counsel
Re: SCH, ex. 60 letter to Counsel Re: SCH)
Respondents' toxic, racist, malice, abusive, irresponsible and recklessness of
violations while creating a hostile workplace environment, while engaging in
concealing criminal activities, documents, protecting dangerous non-African
American employees and refusing to address Petitioners 13 Separate Counts of
Allegation such as (a) 18 U.S.C. § 1503 concealing and interfering with a Civil
Rights violation investigation and Criminal Investigation etc. of (b) 18 U.S.C. §
1510 Criminal Hate Crime Incidents of "three of the Respondents non-African
American employees admitting to Plotting to Kill an African American co-worker,
while making two attempts without the Petitioner being aware of about two
months of Plotting (c)
Violation of 12 other African Americans Constitutional Rights to Petition etc. and
with incidents that involves, Destruction of the Appellee's Corporate Documents,
Video Tapes and Records 18 U.S.C. § 1520. Appellee's Tampering with witnesses,
evidence and the victim (Appellant & Others) 18 U.S.C. § 1512 and the Appellant's

emphatically made numerous requests for all Parties stated above to prompt or
invoke a Civil Rights Investigation into Criminal Hate Crime Incidents 18 U.S.C. §
1510 etc.
Chief Circuit Judge Diane S. Sykes never responded back to "Petitioners' (Pending)
motion request for clarification and Justification for the denial of Petitioners
motion to request mandate and Petitioners' motion for reconsideration of
mandate" dated September 29, 2020 and Petitioners prepared mandate dated
and via mailed August 31, 2020.
Court of Appeal Circuit Judges did not respond back to "Petitioners' (Pending)
September 29, 2020 motion to preserve evidence".
One of my main reasons for contact you, is regarding the Court of Appeals Circuit
Judge Amy Coney Barrett, to engage in tactical manipulation of unfair justice by
the surreptitious and insidious actions making at least two egregious calculating
statement by telling the Appellant "the Appellant appears capable of litigating this
appeal on his own" even through and despite the Appellant providing to Amy
Coney Barrett a copy of the Appellant's Psychiatrist evaluation (dated April 30,
2019) and Therapist/Counselors evaluation (dated October 29, 2019) mental
disabilities issues etc., (through Obama Care) before I (the Appellant) filed a
motion requesting Legal Counseling (in Appellant's September 29, 2020 motion),
for more details, I would like to send you copies of my motion to Amy Coney
Barrett that clarifies an distinctive characteristic actions and viewpoints of how
she treat individuals with disabilities, incapability's, (PTSD) post-traumatic stress
disorder, physical and mental medical conditions that was caused by my ex­
employers in the Lawsuit. I would like to send immediately one document that I
would hope makes you curious enough to see more. Please view my (the Plaintiff)
Civil Case No. 15-cv-06759 and my (the Appellant's) Appeal Case No. 19-2595 for
more precise details of why I will fight to the end and make my Civil Case and
Appeal Case transparent for the Transparency of Systemic Racist Corrupt Court
System, Judges and the criminal Judicial Justice System etc.
My name is Fred Cartwright, when I was unjustifiably terminated in December
2013 from my job for speaking out on a hate crime by three non-African
Americans co-workers, whom plotted for about two months to kill me by running
me off the road with their cars, while making two attempts without my
knowledge of the plot and believed the two attempts was an accident until I

mentioned it in the breakroom, when co-workers who knew about the place
made me aware. 1 was suspended and terminated for not keep my mouth shut
and demanding my companies Executives and Supervisors do something about
the problem of fearing for my life. The Company's Executives "Falsified
Documents", "Lied about having Video Tape that shows me not doing my Job"
and no one wanted to investigate anything. While I was on suspension, with the
understanding the company was protecting their non-African American
employees, I reported it to the police department. The police office contacted one
of the bosses and decided that I wanted to long to report the incident and my
place of employment stated to them, the problem was solved, and it was hard for
me to obtain legal assistance. I filed my case in Federal Court on August 3, 2015
on my own and it was accepted. But no one believed this was possible and I
believed they thought I was seeking revenge. I was seeking damages that was
caused by the company's actions of Racial discrimination, malice, toxic, reckless
abuse and creating a hostile workplace environment etc. After about a year of
requesting legal Assistance, I was appointed counsel's whom did not want the
case and express their dislike to the presiding Judge and the Judge force them to
represent my, that created other issues for me. Appointed counsel would not
address the major issues of a Civil Rights Hate Crime and made a poor attempt of
contacting my numerous of witnesses etc., along with not addressing and
protecting my constitutional first amendment rights to petition and 13 other
African American who participated in signing my petition. That was another
reason for the company executive suspending me to keep anyone else from
signing the petition and participating in their First Amendment Rights etc.
My Civil Case 15-cv-06759 was "Erroneously Dismiss" With Prejudice" in June 25,
2019 after I would not cooperate like a slave and continue to be misrepresented
by Court's appointed Counsel's and Dereliction of Duty by the Federal Judge
whom intimidate and bullied appointed counsel's to quickly get this case off his
docket by any means necessary and the Counsel understood who are in charge
and has the power of control. The Judge understood what it would take for me to
appeal his abusive actions, Dereliction of Duty and Justice. My case would not
have lasted this long (5 years) with lies, without undisputed factual evidence, if
my allegations can be disputed, denied nor could be argued against and I would
have cooperated with their Systemic Racist Corrupt Disease Pandemic within the
Civil Justice System and Criminal Judicial Justice System nor bow down to Racist
individuals.

I have Appealed my Civil Case with the Court of Appeal that is also public record
of Appeal Case No. 19-2595 that everyone must review
as called ("Plaintiff"), ("Appellant") and ("Petitioner") by the Court of Appeals
Circuit Judge Amy Coney Barrett, to engage in tactical manipulation of unfair
justice by the surreptitious and insidious actions making at least two egregious
calculating statement by telling the Appellant "the Appellant appears capable of
litigating this appeal on his own" even through and despite the Appellant
providing to Amy Coney Barrett a copy of the Appellant's Psychiatrist evaluation
(dated April 30, 2019) and Therapist/Counselors evaluation (dated October 29,
2019) mental disabilities issues etc., (through Obama Care) before and after the
Appellant file a motion requesting Legal Counseling (in Petitioner's September 29,
2020 motion), (view ex. 93 dated 9/29/2020,

».

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully subnaitted,

Date::

November 4, 2020

